                

                

                     U.S. ENVIRONMENTAL PROTECTION AGENCY 

                     OFFICE OF INSPECTOR GENERAL 
                

                



                     Limited Oil Spill Funding
                     Since the Enbridge Spill
                     Has Delayed Abandoned Oil
                     Well Cleanups; Emergency Oil
                     Responses Not Impacted
                     Report No. 13-P-0370                September 4, 2013




Scan this mobile
code to learn more
about the EPA OIG.
Report Contributors:                               Brooke Shull
                                                   Steve Hanna
                                                   Chad Kincheloe
                                                   Tina Lovingood




Abbreviations

EPA           U.S. Environmental Protection Agency
FY            Fiscal Year
GAO           U.S. Government Accountability Office
OEM           Office of Emergency Management
OIG           Office of the Inspector General
OSC           On-Scene Coordinator
OSLTF         Oil Spill Liability Trust Fund
OSWER         Office of Solid Waste and Emergency Response


Cover Photo: An excavation of oil-contaminated soil from the overbank area at the
             Enbridge spill site. (EPA photo)




  Hotline
  To report fraud, waste, or abuse, contact us through one of the following methods:

  email:     OIG_Hotline@epa.gov                      write:    EPA Inspector General Hotline
  phone:     1-888-546-8740                                     1200 Pennsylvania Avenue, NW
  fax:       202-566-2599                                       Mailcode 2431T
  online:    http://www.epa.gov/oig/hotline.htm                 Washington, DC 20460
                        U.S. Environmental Protection Agency 	                                                13-P-0370
                                                                                                       September 4, 2013
                        Office of Inspector General


                        At a Glance

Why We Did This Review              Limited Oil Spill Funding Since the Enbridge Spill
The U.S. Environmental              Has Delayed Abandoned Oil Well Cleanups;
Protection Agency, Office of
Inspector General, received an      Emergency Oil Responses Not Impacted
anonymous hotline complaint
about the EPA’s management          What We Found
of emergency oil spill funding
for the Enbridge pipeline spill.    We reviewed hotline allegations that: (1) the EPA failed to request additional oil
                                    spill funding in response to its ongoing Enbridge pipeline spill costs and other
On July 26, 2010, the               uncontrolled oil discharges; (2) the EPA headquarters told regions there would be
Enbridge pipeline spill released    a shortage of emergency funding through 2014; (3) limited funding resulted in
more than 800,000 gallons of        cleanup delays at known oil-discharge sites; (4) the EPA’s administrative orders
oil into the Kalamazoo River in     lacked required language specifying which costs can be recovered by the
Michigan. The responsible           government; and (5) the EPA had not submitted requests for reimbursement of
party, Enbridge Energy              its Enbridge spill oversight costs. Our findings partially substantiated allegation 1
Partners, LLC, is cleaning up       and substantiated allegation 3, but did not substantiate allegations 2, 4 and 5.
the spill.
                                    Also, according to EPA staff, the Enbridge spill has not impacted the EPA’s ability
As of February 24, 2013, the        to respond to classic emergency spills, such as tanker truck rollovers and
EPA’s costs to oversee the          pipeline breaks. However, EPA Regions 2 and 4 staff said limited funding due to
cleanup totaled more than           the spill has caused delays and impacted their ability to respond to abandoned oil
$50 million. These costs are        wells in their regions. Regions 2 and 4 have identified abandoned oil well sites
reimbursed by the Oil Spill         that have leaking wells that impact or threaten surface waters. Cleanup delays at
Liability Trust Fund, which is      these sites could result in further contamination, posing a threat to wildlife, fish,
administered by the U.S. Coast      and underground sources of drinking water. Although the EPA’s Office of
Guard.                              Emergency Management staff were aware of the risks, the OEM prioritized its
                                    limited funding for classic emergency oil spills. The OEM has not coordinated
This report addresses the           with Regions 2 and 4, or other regions, to develop a nationwide plan to address
following EPA Goals or              abandoned oil wells. Agency staff said they requested additional funding for the
Cross-Cutting Strategies:           Enbridge spill. However, the EPA did not request additional funding for
                                    abandoned oil well removals.
Cleaning up communities
   and advancing sustainable        We also found that the EPA lacks technical guidance on oil spills, which results in
   development.                     emergency responders using their discretion to develop and execute response
Protecting America’s waters.     actions. While this may be adequate and sufficient for typical emergency oil
                                    spills, the large-scale release of tar sands oil in the Enbridge spill had not been
                                    encountered before by the EPA. Oil spill guidance or a more robust application of
                                    lessons learned from major oil spill cleanups could provide essential information
                                    for other EPA regions to use in future spills of this nature.

                                    Recommendations
For further information, contact    We recommend that the OEM establish risk-based priority criteria for use by the
our Office of Congressional and     regions in their requests to EPA headquarters for Oil Spill Liability Trust Fund
Public Affairs at (202) 566-2391.
                                    funding and in implementing oil spill responses. We also recommend that the
The full report is at:              OEM develop a process for sharing lessons learned from large or unprecedented
www.epa.gov/oig/reports/2013/       oil spills such as Enbridge. OEM agreed with both recommendations. One
20130904-13-P-0370.pdf              recommendation is complete, both are resolved, and no further response to the
                                    final report is needed from the agency.
                       UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                    WASHINGTON, D.C. 20460


                                                                                   THE INSPECTOR GENERAL




                                           September 4, 2013

MEMORANDUM

SUBJECT:	 Limited Oil Spill Funding Since the Enbridge Spill Has Delayed
          Abandoned Oil Well Cleanups; Emergency Oil Responses Not Impacted
          Report No. 13-P-0370

FROM:	         Arthur A. Elkins Jr.

TO:	           Mathy Stanislaus, Assistant Administrator
               Office of Solid Waste and Emergency Response

This is our report on the subject review conducted by the Office of Inspector General of the
U.S. Environmental Protection Agency. This report describes issues the OIG identified and makes
recommendations to address these issues. The report represents the opinion of the OIG and does not
necessarily represent the final EPA position.

Action Required

You are not required to provide a written response to this final report, because you agreed to all
recommendations and provided corrective actions and completion dates that meet the intent of the
recommendations. The first recommendation is resolved and open with corrective actions ongoing,
and the second recommendation is resolved and completed.

Should you choose to provide a response to this final report, we will post your response on the OIG’s
public website, along with our memorandum commenting on your response. You should provide your
response as an Adobe PDF file that complies with the accessibility requirements of Section 508 of the
Rehabilitation Act of 1973, as amended. We will post this report to our website at
http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact Assistant Inspector General
for Program Evaluation Carolyn Copper at (202) 566-0829 or copper.carolyn@epa.gov, or Director for
Land Cleanup and Waste Management Tina Lovingood at (202) 566-2906 or lovingood.tina@epa.gov.
Limited Oil Spill Funding Since the Enbridge Spill                                                                            13-P-0370
Has Delayed Abandoned Oil Well Cleanups;
Emergency Oil Responses Not Impacted



                                      Table of Contents 

   Purpose........................................................................................................................    1


   Background .................................................................................................................       1


        Enbridge Oil Spill.....................................................................................................       1

        Oil Spill Liability Trust Fund.....................................................................................           2


   Scope and Methodology.............................................................................................                 3


   Prior Reviews .............................................................................................................        3


   Review Results............................................................................................................         3


           Funding for the Enbridge Spill Did Not Impact the EPA’s Response to 

               Classic Oil Spill Emergencies.........................................................................                 4

           No Evidence of EPA Communications About Shortages of 

               Emergency Oil Spill Funding ..........................................................................                 5

           Limited Funding Since the Enbridge and Deepwater Horizon Spills 

               Delayed Abandoned Oil Well Cleanups in Two Regions ...............................                                     5

           Allegations About Reimbursement of EPA Oversight Costs 

               Not Substantiated...........................................................................................           7

           Lessons Learned From the Enbridge Spill Could Provide 

               Valuable Information for Future Oil Spill Cleanups ........................................                            7


   Conclusion...................................................................................................................      9


   Recommendations ......................................................................................................             9


   Agency Response and OIG Evaluation.....................................................................                            9


   Status of Recommendations and Potential Monetary Benefits..............................                                           11




Appendices
   A       Agency Response to Draft Report and OIG Comments .................................                                        12 


   B       Distribution .........................................................................................................    16 

Purpose
            The U.S. Environmental Protection Agency, Office of Inspector General, received
            an anonymous hotline complaint that raised questions about the EPA’s
            management of emergency oil spill funding for the Enbridge pipeline spill. We
            examined the following allegations: (1) the EPA failed to request additional oil
            spill funding in response to its ongoing Enbridge spill costs and other
            uncontrolled oil discharges; (2) the EPA headquarters told regions there would be
            a shortage of emergency funding through 2014; (3) limited funding resulted in
            cleanup delays at known oil-discharge sites; (4) the EPA’s administrative orders
            lacked required language specifying which costs can be recovered by the
            government; and (5) the EPA had not submitted requests for reimbursement of its
            Enbridge spill oversight costs.

Background

            Under the Clean Water Act, the Oil Pollution Act, and the National Oil and
            Hazardous Substances Pollution Contingency Plan, the EPA is authorized to
            respond to actual or threatened oil discharges into the waters of the United States.
            The EPA is the lead federal response agency for oil spills occurring in inland
            waters. When an inland oil spill occurs, a regional EPA official is assigned to
            monitor or direct the response as the federal on-scene coordinator. Every year, the
            EPA manages or oversees responses to about 300 oil spills affecting U.S. inland
            waters.

            Enbridge Oil Spill

            On July 26, 2010, a 30-inch pipeline carrying tar sands oil ruptured near
            Marshall, Michigan, releasing more than 800,000 gallons of oil. The release
            entered Talmadge Creek and flowed 30 miles down the Kalamazoo River—a
            Lake Michigan tributary. The EPA issued an administrative order under its Clean
            Water Act authority, directing Enbridge Energy Partners, LLC, the responsible
            party, to conduct removal actions.

            On October 3, 2012, the EPA notified Enbridge that more work was needed in
            Michigan’s Kalamazoo River. To date, more than 1.1 million gallons of oil have
            been collected, and almost 200,000 cubic yards of soil and debris have been
            disposed. As of February 24, 2013, the agency’s oil spill costs total more than
            $50 million. The cost ceiling authorized by the U.S. Coast Guard is approximately
            $56 million. Figure 1 shows the portion of EPA’s Enbridge cleanup funding
            compared to its overall oil spill response budget. When Enbridge spill costs are
            excluded, total funding for other oil spills decreased beginning in fiscal year 2010.




13-P-0370                                                                                      1
            Figure 1: The EPA’s annual oil spill budget, fiscal years 2008–2012

                                                   Oil Spill Budget Summary
                                      50
                                      45
                                      40
                                      35
                                      30
              Millions  of  Dollars




                                      25                                             Enbridge

                                      20                                             non‐Enbridge

                                      15
                                      10
                                       5
                                       0
                                           FY 08     FY 09   FY 10   FY 11   FY 12

            Source: The EPA’s Office of Emergency Management budget data and
            Enbridge spill situation reports.

            Oil Spill Liability Trust Fund

            The 1990 Oil Pollution Act provides funding for oil cleanups using the Oil Spill
            Liability Trust Fund. The OSLTF, which consists of a Principal Fund and an
            Emergency Fund, can provide up to $1 billion per oil spill incident. The
            Emergency Fund is available for federal OSCs to respond to discharges, and for
            federal trustees to initiate natural resource damage assessments. A $50 million
            annual Emergency Fund apportionment occurs at the start of each fiscal year and
            money is drawn down for the rest of the year until the fund is depleted.

            To the extent that $50 million is inadequate, the Maritime Transportation Security
            Act of 2002 granted authority to advance up to $100 million from the Principal
            Fund for removal activities. The Principal Fund is used to pay claims and to fund
            the administration of the Oil Pollution Act by federal agencies. The EPA receives
            an annual oil spill appropriation from the Principal Fund, which is used for oil
            spill planning and support functions, including personnel and equipment.

            The U.S. Coast Guard administers the OSLTF and manages the cost-recovery
            process for OSLTF-funded cleanups. As outlined in a 2012 Memorandum of
            Understanding with the Coast Guard, the EPA provides documentation of all
            removal costs to receive reimbursement from the OSTLF. Once the Coast Guard’s
            National Pollution Funds Center has ensured that the EPA has the appropriate
            documentation to support the charges, the Coast Guard then bills the responsible
            party on behalf of the EPA. The Coast Guard carefully monitors ceilings for
            ongoing removal efforts to ensure that the OSLTF has adequate funds to cover all
            costs. Payments made by the responsible party are deposited into the OSLTF
            Principal Fund.


13-P-0370                                                                                           2
Scope and Methodology
            We conducted our review from September 2012 to June 2013, in accordance with
            generally accepted government auditing standards. Those standards require that
            we plan and perform our review to obtain sufficient, appropriate evidence to
            provide a reasonable basis for our findings and conclusions based on our
            objectives. We believe that the evidence obtained provides a reasonable basis for
            our findings and conclusions based on our objectives.

            To determine whether limited oil spill funding since the Enbridge spill has
            impacted other regions, we interviewed staff in the EPA’s Office of Emergency
            Management, and emergency response staff in all 10 EPA regions. We reviewed
            reimbursement of the EPA’s oversight costs for the Enbridge spill, as well as oil
            spill funding allocations to each region from FY 2008 through FY 2012. Finally,
            we reviewed the EPA and Coast Guard rules, policies, and guidance related to oil
            spill funding and cost reimbursement.

Prior Reviews
            We reviewed the following EPA OIG and U.S. Government Accountability
            Office reports on the OSLTF and the Enbridge oil spill response:

               	 EPA OIG Report No. 11-P-0527, EPA’s Gulf Coast Oil Spill Response
                  Shows Need for Improved Documentation and Funding Practices,
                  August 25, 2011.
                EPA OIG Report No. 11-P-0273, EPA Actively Evaluating Effectiveness
                  of Its BP and Enbridge Oil Spill Response Communications,
                  June 23, 2011.
                GAO Report No. GAO-10-795T, Cost of Major Spills May Impact
                  Viability of Oil Spill Liability Trust Fund, June 16, 2010.
                GAO Report No. GAO-08-357T, Major Oil Spills Occur Infrequently, but
                  Risks Remain, December 18, 2007.

Review Results
            According to EPA staff, the EPA’s work on the Enbridge oil spill has not
            impacted the agency’s ability to respond to classic emergency oil spills. However,
            two regions reported backlogs of planned removals at abandoned oil wells
            because of insufficient funding since the Enbridge spill. According to EPA
            regional staff, planned actions for abandoned wells commonly involved
            responding to oil discharges that were impacting or threatening surface waters.

            The allegation that the EPA has not requested reimbursement for its Enbridge
            spill oversight costs was not substantiated. The agency has submitted and received
            cost reimbursement for all bills sent to the Coast Guard for the Enbridge Oil Spill
            through September 2012. The Clean Water Act provides authority for the


13-P-0370                                                                                    3
            recovery of all government costs incurred and additional detail on cost-recovery
            language was not necessary in the administrative orders.

            Finally, the agency staff explained that the EPA lacks technical guidance on oil
            spills, and relies on National Contingency Plan requirements and the expertise of
            the EPA’s OSCs to guide oil response actions. Oil spill guidance and a more
            robust application of lessons learned from major spills such as the Enbridge spill
            could assist EPA staff in identifying appropriate and cost-effective response
            actions for similar spills. Table 1 below summarizes the allegations addressed in
            our review and our findings.

            Table 1: Allegations reviewed by OIG
                      OIG hotline allegation                                      Finding
             (1) The EPA failed to request additional        Partially Substantiated. The EPA stated it
             oil spill funding in response to its            requested additional funding for the Enbridge
             ongoing Enbridge spill costs and other          spill. However, the EPA did not request
             uncontrolled oil discharges.                    additional funding for abandoned oil well
                                                             removals.
             (2) EPA headquarters told regions there         Not substantiated. We found no evidence of
             would likely be a shortage of                   such communications. The communications
             emergency funding through 2014.                 from EPA headquarters addressed the need
                                                             to redirect unspent oil spill funding to the
                                                             Enbridge cleanup at the end of FY 2010.
                                                             Headquarters also discussed limited funding
                                                             for abandoned oil well removals in Region 4.
             (3) Limited funding resulted in cleanup         Substantiated. The Enbridge spill reduced
             delays at known oil-discharge sites.            the overall amount of available reimbursable
                                                             OSLTF funding. Limited funding impacted
                                                             planned oil well cleanups in two regions.
                                                             However, all regions stated they were able to
                                                             respond to classic oil spill emergencies.
             (4) The EPA’s administrative orders             Not substantiated. The Clean Water Act
             lacked required language specifying             provides authority for the recovery of all
             which costs can be recovered by the             government costs incurred and additional
             government.                                     detail on cost-recovery language was not
                                                             necessary in the administrative orders.
             (5) The EPA had not submitted                   Not substantiated. The EPA submitted
             requests for reimbursement of its               reimbursement requests and was reimbursed
             Enbridge spill oversight costs.                 for its costs through September 2012.
            Source: OIG analysis of hotline complaint allegations and interviews with EPA staff.

            Funding for the Enbridge Spill Did Not Impact the EPA’s
            Response to Classic Oil Spill Emergencies

            From FY 2010 through FY 2012, the EPA was able to maintain a small portion of
            its oil response funds in the agency’s headquarters reserve each year as a
            contingency for an emergency spill. Consequently, agency staff confirmed that
            the EPA’s work on the Enbridge spill has not impacted its ability to respond to



13-P-0370                                                                                                 4
                  other classic emergency spills. Examples of classic emergency spills are tanker
                  truck rollovers, oil pipeline breaks and significant spills at oil storage facilities.
                  Although regional managers we interviewed said the Enbridge and Deepwater
                  Horizon1 oil spills reduced the overall amount of available reimbursable OSLTF
                  funding, the OEM staff said they prioritized funding for classic emergency spills.
                  All of the regions confirmed that they had enough funding to respond to all classic
                  oil spill emergencies.

                  No Evidence of EPA Communications About Shortages of
                  Emergency Oil Spill Funding

                  The OIG hotline complaint alleged that the EPA headquarters told regions there
                  would likely be a shortage of emergency funding through 2014. The EPA’s
                  regional oil spill program managers did not recall or have documentation of
                  communications from the EPA headquarters warning about funding shortages.
                  These managers further indicated that discussions about funding shortages were
                  largely limited to the EPA headquarters asking regions to identify unspent
                  funding that could be redirected to the Enbridge cleanup. These discussions
                  occurred shortly after the Enbridge spill at the end of FY 2010, and the regions
                  reported these communications did not impact their oil spill programs.

                  In addition, after the Enbridge spill, Region 4 staff said they were told by EPA
                  headquarters that there was insufficient funding for abandoned oil well removals.
                  However, Region 4 did not describe or provide documentation of warnings about
                  funding shortages through 2014, and the communications from EPA headquarters
                  did not apply to classic oil emergencies.

                  Limited Funding Since the Enbridge and Deepwater Horizon Spills
                  Delayed Abandoned Oil Well Cleanups in Two Regions

                  The OIG hotline complaint alleged that limited funding resulted in cleanup delays
                  at known oil-discharge sites. Regions 2 and 4 confirmed that they had to delay oil
                  cleanups because of insufficient and incremental funding after the Enbridge and
                  Deepwater Horizon spills. Both regions said the delayed cleanups were for
                  planned removal actions at abandoned oil well sites rather than typical oil
                  emergencies. The leaking oil wells were likely leaking into or threatening surface
                  water.

                  Region 4 has a program to clean up thousands of abandoned oil wells in remote
                  areas of Kentucky.2 Regions 2, 3 and 6 are also dealing with abandoned oil wells.
                  Leaking abandoned oil wells are a legacy of the oil production industry prior to
                  the development of stringent requirements to plug wells that are no longer in use.

1
  The Deepwater Horizon oil spill, also known as the BP oil spill, occurred from April 20, 2010, through July 15, 

2010, when a mobile offshore drilling unit exploded releasing approximately 4.9 million barrels of oil into the Gulf 

of Mexico.

2
  Region 4 also has abandoned oil wells in Alabama, Mississippi, and Tennessee. 



13-P-0370                                                                                                            5
            Many of the wells are decades old, with some dating back to the late 1800s. For
            many of these wells, there are no clear responsible parties to properly plug and
            close the wells. According to Region 4, these are not classic emergency spills, but
            oil wells that are no longer in use and pose a large and chronic environmental
            problem for the region.

            Region 4 staff explained that human health risks posed by the leaking wells are
            limited since most abandoned well sites in their region are in remote locations.
            However, delayed cleanups, particularly at high-priority sites identified by the
            EPA regions, increase the risk of further environmental contamination.
            For example, at the Oaks Community Leaking Oil Wells Area C site in
            Ohio County, Kentucky, EPA Region 4 estimated that the 31 leaking abandoned
            wells at the site would discharge between 620 and 1,240 gallons of crude oil
            daily. The wells are impacting or threatening surface waters, and pose a threat to
            adjoining shorelines, wildlife, fish and underground sources of drinking water.




            An abandoned oil well site in Kentucky. (EPA photo)


            Regions 2 and 4 have not had problems receiving the Coast Guard’s approval to
            conduct the abandoned well removals, but were not allocated sufficient funding
            by the EPA’s headquarters. Region 4 staff said they received less funding than
            requested in FYs 2011 and 2012, which contributed to a backlog of oil well
            removals. According to the OEM, Region 4 budgeted and requested $5.5 million
            for oil removal funding in FY 2012 and only received $3.8 million. The number
            of oil removals completed in Region 4 decreased from 100 in FYs 2009 and 2010




13-P-0370                                                                                        6
            to 64 in FY 2011 and 79 in FY 2012. Region 4 managers also said that
            incremental oil funding has made it difficult to manage their program.

            Since the Enbridge spill, the EPA’s headquarters started authorizing partial
            funding multiple times throughout the year, rather than lump-sum funding at the
            beginning of the year or every 6 months. As a result, Region 4 managers said they
            were limited to working on a few oil wells at a time, rather than a large-scale
            cleanup. Region 4 managers said that with additional funding they would have
            prioritized planned oil well cleanups. Likewise, Region 2 had to postpone some
            planned removal actions because of insufficient funding after the Enbridge spill.
            The removals eventually were completed once additional funding was authorized.

            Staff in one EPA region said they had not received all of the funding requested
            from the OEM for abandoned well removals, but in light of the fact that funding
            was limited after the Enbridge and Deepwater Horizon spills, the OEM had
            prioritized classic emergency spills over the planned well removals. The OEM
            staff explained that they try to give regions as much funding as the regions
            request, but the OEM still has to operate within the funding ceiling approved by
            the Coast Guard, and the OSLTF apportionment approved by the Office of
            Management and Budget.

            Although the EPA successfully received approval to increase oil spill funds for
            the Enbridge spill, the OEM staff did not believe they would receive approval to
            increase funds for oil well cleanups. These cleanups are not considered classic
            emergencies, and the OEM did not seek additional funding for them. Region 4
            managers reported that incremental funding has continued into FY 2013, and this
            has affected their ability to plan future removals at oil well sites. EPA staff said
            the agency does not yet have a nationwide plan to address abandoned wells sites.

            Allegations About Reimbursement of EPA Oversight Costs
            Not Substantiated

            The OIG hotline complaint alleged that the EPA’s administrative orders lacked
            required language specifying which costs could be recovered by the government,
            and that requests for reimbursement had not been submitted by the agency. The
            Clean Water Act provides authority for the recovery of all government costs
            incurred and additional detail on cost-recovery language was not necessary in the
            orders. The EPA has requested and received reimbursement for all of its Enbridge
            costs through September 2012.

            Lessons Learned From the Enbridge Spill Could Provide
            Valuable Information for Future Oil Spill Cleanups

            During this review, we learned that the OEM lacks technical guidance specific to
            oil spills. According to OEM managers, the EPA relies on the requirements
            outlined in the National Contingency Plan to guide its oil response actions, as well



13-P-0370                                                                                          7
            as the expertise of the EPA’s OSCs. The determination of technical requirements,
            evaluation techniques, and the level of monitoring used when the EPA oversees
            oil spill cleanups are made at the discretion of the OSC. This allows OSCs the
            flexibility to address the unique nature and circumstances of each spill.

            However, oil spill guidance and a more robust application of lessons learned from
            major spills such as Enbridge could better assist discretionary actions and support
            effective and efficient oil spill cleanups. The need for this is illustrated by the
            EPA’s comments in their April 22, 2013, response to the U. S. Department of
            State concerning the Keystone pipeline: “We have learned from the 2010
            Enbridge spill of oil sands crude in Michigan that spills of diluted bitumen (dilbit)
            may require different response actions or equipment from response actions for
            conventional oil spills. These spills can also have different impacts than spills of
            conventional oil.”

            To assist EPA regions with any future cleanups of this type, documentation of
            lessons learned would be beneficial to regional cleanup efforts. Better
            documentation of lessons learned could clarify appropriate response techniques
            and monitoring requirements for similar oil spills in the future. Documenting
            lessons learned could also aid agency discretion, and potentially lead to more
            transparent and predictable EPA decisions that could benefit interactions and
            outcomes with responsible parties.

            The EPA’s experience directing and overseeing the Enbridge spill cleanup
            presents an opportunity for sharing and applying lessons learned. Region 5 led a
            hot wash, or performance review, of its Enbridge response on March 22–23, 2011.
            The review sought feedback from all personnel who supported the Enbridge oil
            spill response in both on-site and off-site capacities. Comments from EPA
            Region 5 staff and personnel from 23 participating agencies provided feedback on
            response operations, and the structure and effectiveness of the EPA’s Incident
            Command System. Region 5 and the OEM can use this review to identify areas of
            success, as well as areas in need of improvement when responding to future
            emergencies.

            In addition, Region 5 can share its unique experience developing new techniques
            to remove submerged oil. After the Enbridge spill, cleanup crews initially
            responded by skimming oil from the surface—a technique commonly used for
            most types of oil. Within 1 month of the Enbridge spill, cleanup crews discovered
            that some of the heavy tar sands oil was submerged in the bottom of the river. The
            following spring, an EPA-directed reassessment found a moderate-to-heavy
            contamination covering more than 200 acres of the river bottom. This required
            dredging and excavation of oil from the riverbed, and led the EPA to develop new
            methods for detecting and recovering submerged oil. Among the advances made
            during the Enbridge cleanup were techniques used to agitate submerged oil from
            the riverbed so that the oil could be contained and collected from the surface.




13-P-0370                                                                                       8
            A summary of best practices for handling submerged oil would be valuable for
            addressing future spills of this nature. Documentation of best practices could
            assist other responders in identifying appropriate and cost-effective cleanup
            strategies for future responses to submerged oil.

Conclusion
            According to EPA staff, limited funding since the Enbridge spill has impacted the
            agency’s ability to respond to abandoned leaking oil wells in two regions, but it
            has not impacted classic oil spill emergencies. Regional managers indicated that
            limited and incremental oil funding to the regions may further delay work at
            abandoned well sites and may affect future large-scale oil removals that are not
            considered classic emergencies. EPA staff said the agency does not yet have a
            nationwide plan to address abandoned wells. In addition, since the EPA lacks
            technical guidance on oil spills, emergency responders currently use their
            discretion to develop and execute response actions. The development of oil spill
            guidance, as well as a more robust application of lessons learned from major oil
            spills such as Enbridge, could support effective and efficient cleanups.

Recommendations
            We recommend that the Assistant Administrator for Solid Waste and Emergency
            Response:

               1.	 Establish risk-based priority criteria (e.g., imminent threat, emergency
                   response and non-emergency response abandoned oil well work) for use
                   by the regions in their requests to EPA headquarters for OSLTF funding
                   and in implementing responses.

               2.	 Develop a process for sharing lessons learned from large or unprecedented
                   oil spills such as Enbridge, to assist EPA staff nationwide in responding to
                   similar events in the future and to provide transparency in EPA decision-
                   making.

Agency Response and OIG Evaluation
            The Office of Solid Waste and Emergency Response did not agree with our
            wording of recommendation 1, but provided an alternative that the OIG finds
            acceptable, including a corrective action plan with milestone dates. We therefore
            agree on this recommendation. OSWER will develop risk-based priority criteria
            for use by regions in their requests for funding. This will provide an opportunity
            for regions to identify and prioritize abandoned oil well cleanups using defined
            risk-based criteria, and will support increased OSLTF funding requests if
            warranted by the defined workload and potential environmental risk. Based on the
            agency’s response, this recommendation is resolved and open with corrective
            actions underway.


13-P-0370                                                                                     9
            OSWER agreed with recommendation 2 and provided milestone dates for actions
            that have already occurred. One of these actions, a presentation by Region 5 staff
            at the 2011 International Oil Spill Conference, is available online at
            http://ioscproceedings.org/doi/pdf/10.7901/2169-3358-2011-1-422. Additionally,
            OEM indicated that OSC reports completed at the end of a removal action provide
            another process for sharing lessons learned from oil spills. If completed, such a
            report may provide additional valuable information on lessons learned. This
            recommendation is considered resolved and completed.

            Appendix A contains OSWER’s response to our draft report and planned actions
            to address our recommendations. We reviewed OSWER’s technical comments
            and made revisions to the report as appropriate.




13-P-0370                                                                                  10
                                  Status of Recommendations and
                                    Potential Monetary Benefits

                                                                                                                              POTENTIAL MONETARY
                                                     RECOMMENDATIONS                                                           BENEFITS (in $000s)

                                                                                                                  Planned
    Rec.    Page                                                                                                 Completion   Claimed    Agreed-To
    No.      No.                           Subject                           Status1      Action Official           Date      Amount      Amount

     1        9     Establish risk-based priority criteria (e.g., imminent     O       Assistant Administrator   12/31/2013
                    threat, emergency response and non-emergency                        for Solid Waste and
                    response abandoned oil well work) for use by the                   Emergency Response
                    regions in their requests to EPA headquarters for
                    OSLTF funding and in implementing responses.

     2        9     Develop a process for sharing lessons learned              C       Assistant Administrator   04/30/2011
                    from large or unprecedented oil spills such as                      for Solid Waste and
                    Enbridge, to assist EPA staff nationwide in                        Emergency Response
                    responding to similar events in the future and to
                    provide transparency in EPA decision-making.




1    O = Recommendation is open with agreed-to corrective actions pending.

     C = Recommendation is closed with all agreed-to actions completed.

     U = Recommendation is unresolved with resolution efforts in progress.





13-P-0370                                                                                                                                       11
                                                                                   Appendix A


                  Agency Response to Draft Report
                        and OIG Comments


MEMORANDUM

SUBJECT: Response to Office of Inspector General Draft Report No. OPE-FY12-24 "Review
of Hotline Complaint Regarding the EPA's Management of Emergency Oil Spill Funding for the
Enbridge Pipeline Spill," dated June 14, 2013

FROM:         Mathy Stanislaus
              Assistant Administrator

TO:           Carolyn Copper
              Office of Program Management

Thank you for the opportunity to respond to the issues and recommendations in the subject draft
audit report. Following is a summary of the Agency's overall position, along with its position on
each of the report recommendations. For the report recommendation with which the Agency
agrees, we have provided high-level intended corrective actions and estimated completion dates
to the extent we can. For the report recommendations with which the Agency does not agree, we
have explained our position and proposed an alternative to the recommendation. For your
consideration, we have included a Technical Comments Attachment to supplement this response.

OIG Response: The OIG reviewed the technical comments and made revisions to the report as
appropriate.

AGENCY’S OVERALL POSITION

The Agency agrees with the identified need to develop a process for sharing lessons learned from
large incidents such as Enbridge. In fact, since 9/11 the Agency has utilized an informal process
for developing and sharing lessons learned from responses to diverse large incidents. The
Agency does not agree with the report recommendation to develop a national plan to prioritize
and address abandoned oil wells. Currently, Regional oil programs prioritize resources to address
both emergencies and their specific needs.




13-P-0370                                                                                      12
AGENCY'S RESPONSE TO REPORT RECOMMENDATIONS

Agreements
No. Recommendation                       High-Level Intended          Estimated Completion by
                                         Corrective Action(s)         Quarter and FY
2     Develop a process for sharing      1.1 Evaluate the             Completed: March 2011
      lessons learned from large or      emergency response           (Enbridge)
      unprecedented oil spills such as   phase of an incident via a   Process to be continued
      Enbridge, to assist EPA staff      hot wash, meeting, or        for future unprecedented
      nationwide in responding to        other appropriate            oil spills.
      similar events in the future and   mechanism.
      to provide transparency in EPA     1.2 Identify strengths,      Completed: March 2011
      decision-making.                   weaknesses, areas for        (Enbridge)
                                         further development, and     Process to be continued
                                         follow-up action as          for future unprecedented
                                         appropriate.                 oil spills.
                                         1.3 Communicate the          Completed: International
                                         lessons learned through      Oil Spill Conference
                                         the emergency response       April 2011 (Enbridge)
                                         program leadership (i.e.,    Process to be continued
                                         Superfund Division           for future unprecedented
                                         Directors, Removal and       oil spills.
                                         Oil Program Managers);
                                         to, with, between, and
                                         among OSCs; standing
                                         meetings (i.e., Superfund
                                         Division Directors and/or
                                         Removal Managers); and
                                         at national meetings, as
                                         appropriate.

OIG Response: The agency agreed with the recommendation and provided a corrective-action
plan based on past actions. We located and reviewed the 2011 International Oil Spill Conference
presentation referenced under Corrective Action 1.3 at
http://ioscproceedings.org/doi/pdf/10.7901/2169-3358-2011-1-422.

In further discussions, OEM staff noted that OSC reports completed at the end of a removal
action provide another process for sharing lessons learned from oil spills. According to OEM,
OSC reports are generated upon completion of a removal activity from a major discharge of oil;
a major release of a hazardous substance, pollutant or contaminant; or when requested by the
national response team or regional response team. The OSC report documents the situation as it
developed, the actions taken, the resources committed, and the problems encountered. An OSC
report on the Enbridge spill, once cleanup is completed, may provide additional valuable
information on lessons learned.

This recommendation is resolved with actions completed.


13-P-0370                                                                                    13
Disagreements
No. Recommendation              Agency Explanation/Response               Proposed Alternative
1      Develop a nationwide     The Agency’s highest priority is to       Working with Regions,
       plan to prioritize and   respond to classic emergencies via        HQ will ensure that risk-
       address abandoned oil    Regional execution utilizing OSLTF        based priority criteria
       wells that can be        funding, which the USCG                   (e.g., imminent threat,
       remediated using         administers. Statutorily, the Regions     emergency response and
       OSLTF funding. This      use the OSLTF based on an On Scene        non-emergency response
       plan should include      Coordinator’s (OSC’s) determination       abandoned oil well
       an option to request     for oil removal response actions to       work) are established for
       an increase in funding   address various threats to navigable      use by the Regions in
       from the Coast Guard,    waters, including those to abandoned      their requests to HQ for
       if warranted by the      on-shore and/or off-shore oil             OSLTF funding and in
       workload and             production facilities. Specifically       implementing responses.
       potential                abandoned oil well threats can vary
       environmental risk.      significantly based on multiple           By end of 1st Quarter
                                factors, including number of wells        FY14.
                                within the former facility, well
                                pressure, volume of discharge, depth
                                to oil, interconnection with
                                groundwater, and proximity to
                                surface water. These non-emergency
                                oil removal response actions may also
                                be implemented to compliment
                                and/or supplement existing state/local
                                activities. However, not every Region
                                response to abandoned oil wells, and
                                each Region prioritizes its funding to
                                address specific needs beyond classic
                                emergencies. Therefore, a nationwide
                                prioritization plan would have limited
                                benefit and may actually adversely
                                impact Regional flexibility to address
                                threats.

OIG Response: The agency disagreed with the recommendation and suggested an alternative
recommendation and corrective action. The agency agreed that EPA headquarters staff would
work with regions to ensure that risk-based priority criteria are established for use by the regions
in their requests to EPA headquarters for OSLTF funding and in implementing responses by
December 31, 2013. OEM staff clarified that by establishing risk-based criteria, regions will
have an opportunity to identify and prioritize abandoned oil well cleanups to support increased
OSLTF funding requests if warranted by the workload and potential environmental risk. We
believe that the proposed alternative and corrective actions meet the intent of the
recommendation. Based on the agency's comments, the revised recommendation is: "Establish
risk-based priority criteria (e.g., imminent threat, emergency response and non-emergency


13-P-0370                                                                                         14
response abandoned oil well work) for use by the regions in their requests to EPA headquarters
for OSLTF funding and in implementing responses."
This recommendation is resolved and open with agreed-to corrective actions pending.

CONTACT INFORMATION

If you have any questions regarding this response, please contact Gilberto Irizarry, Director, Program
Operations and Coordination Division on (202) 564-7982 or Joshua Woodyard, Director, Business
Operations Center on (202) 564-9588.




13-P-0370                                                                                          15
                                                                            Appendix B

                                   Distribution
Office of the Administrator
Assistant Administrator for Solid Waste and Emergency Response
Deputy Assistant Administrator for Solid Waste and Emergency Response
Agency Follow-Up Official (the CFO)
Agency Follow-Up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Regional Administrator, Region 5
Deputy Regional Administrator, Region 5
Director, Office of Emergency Management, Office of Solid Waste and
   Emergency Response
Audit Follow-Up Coordinator, Office of Solid Waste and Emergency Response
Audit Follow-Up Coordinator, Region 5




13-P-0370                                                                           16
